<html>
<title> - CALIFORNIA'S COMPLIANCE WITH DENTAL AMALGAM DISCLOSURE POLICIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    CALIFORNIA'S COMPLIANCE WITH DENTAL AMALGAM DISCLOSURE POLICIES

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 26, 2004

                               __________

                           Serial No. 108-141

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

93-640              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
MARSHA BLACKBURN, Tennessee                      ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 26, 2004.................................     1
Statement of:
    Johnson, Karen, State representative.........................    16
    Yokoyama, Dr. Chester, DDS, California Dental Board and 
      former Chair Dental Materials Fact Sheet Commission; Shawn 
      Khorrami, Esq.; Parin Shah, executive director, Community 
      Toolbox for Children's Environmental Health and past 
      president, San Francisco's Commission on the Environment; 
      and Dr. Harold Slavkin, DDS, dean, University of Southern 
      California School of Dentistry.............................    21
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Khorrami, Shawn, esq., prepared statement of.................    31
    Shah, Parin, executive director, Community Toolbox for 
      Children's Environmental Health and past president, San 
      Francisco's Commission on the Environment, prepared 
      statement of...............................................    44
    Slavkin, Dr. Harold, DDS, dean, University of Southern 
      California School of Dentistry, prepared statement of......    40
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    12
    Yokoyama, Dr. Chester, DDS, California Dental Board and 
      former Chair Dental Materials Fact Sheet Commission, 
      prepared statement of......................................    25

 
    CALIFORNIA'S COMPLIANCE WITH DENTAL AMALGAM DISCLOSURE POLICIES

                              ----------                              


                        MONDAY, JANUARY 26, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                   Los Angeles, CA.
    The subcommittee met, pursuant to notice, at 2 p.m., in the 
Town and Gown Road, USC Campus, Los Angeles, CA, Hon. Dan 
Burton (chairman of the subcommittee) presiding.
    Present: Representatives Burton and Watson.
    Staff present: Nick Mutton, press secretary; Danielle 
Perraut, clerk; and Richard Butcher, minority professional 
staff member.
    Mr. Burton. Good afternoon. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order. 
And we're very happy that Congresswoman Watson is here with us 
today. I like those blue glasses, too.
    Ms. Watson. 99 cent store.
    Mr. Burton. Just goes to show you do not have to spend a 
lot of money.
    I ask unanimous consent that all Members and witnesses 
written and opening statements be included in the record, and 
without objection so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous material referred to by Members or witnesses be 
included in the record, and without objection so ordered.
    Before we start our opening statements, Congresswoman 
Watson and I have a couple of opening statements that will take 
some time.
    There has been some question about scientific evidence 
about whether or not amalgams in teeth give off any kind of a 
residue or invisible smoke, if you will, that could effect the 
neurological system of human beings. So we have a very brief 
scientific film here, it's about 3 or 4 minutes long, and I 
hope everybody will take a hard look at that at the beginning, 
and then we will go to our opening statements.
    [Video shown.]
    Mr. Burton. I think that's all we need to hear. That was 
showing that one picture is worth 1,000 words.
    I would like to start off my opening statement by thanking 
the University of Southern California, especially Michael Klaus 
and Susan Lynch for their assistance in putting together 
today's hearing. We really appreciate their efforts. And as 
chairman of the House Committee on Government Reform and now 
chairman of the Subcommittee on Human Rights and Wellness, I 
have along with Representative Watson led a 2-year long effort 
to bring to the public's attention, as well as the attention of 
my colleagues in Congress, the dangers posed by mercury 
containing medical and dental devices.
    At previous hearings we have reviewed the concerns about 
thimerosal which contains mercury in vaccines and mercury 
containing dental amalgams. In each case, credible witnesses 
provided testimony that links mercury in the human body to a 
variety of developmental and neurological disorders.
    Mercury is a base element and the most toxic substance 
known in science outside of radioactive elements. It remains a 
base element even when mixed with other materials. Mercury is a 
substance that human beings were not designed to ingest, so the 
body does not have an effective filter or elimination system 
for it.
    Some of the mercury we ingest is eliminated through normal 
bodily functions, but much of it accumulates in the body's 
tissue including vital organs such as the brain. The developing 
neurological systems of fetuses and young children are 
especially susceptible to damage by even the slightest trace 
amounts of mercury. And you saw how much mercury comes off of 
those teeth at various temperatures.
    An ever increasing body of scientific evidence points to 
mercury toxicity as a source of neurological problems including 
but not limiting to, modest declines in intelligence quotient, 
tremors, attention deficit disorder, attention deficit 
hyperactivity disorder [ADHD], Alzheimer's Disease and autism. 
No one has ever identified a positive health benefit to mercury 
in the human body, thus it was sound public policy to eliminate 
mercury from thermometers, blood pressure gauges, light 
switches, cosmetics, teething powder, horse liniment, hat 
making materials, smokestack emissions and mining operations. 
In fact, virtually every industry has either reduced or banned 
the use of mercury with the exceptions of dentistry and the 
pharmaceutical industry.
    The amalgam fillings the American Dental Association so 
wrongly calls silver are mainly mercury, not silver at all. 
Mercury is the single largest ingredient in each filling, 
representing about 40 to 50 percent of the mercury by weight or 
about one half a gram per filling. That is a colossal amount of 
mercury in scientific terms, as much as is in an old fashioned 
thermometer.
    For example, a young child with six amalgam fillings has 
the equivalent of six mercury thermometers worth of mercury in 
his or her mouth. And dentists cannot honestly claim that they 
were not aware of the dangers of mercury. In fact, dentists 
take routine precautions against this potent neurotoxin. 
According to protocol, mercury containing amalgam scraps and 
extracted teeth with amalgam fillings must be stored in sealed 
jars under liquid until special hazardous materials recycler 
pick them up for safe disposal. So if dentists are aware of the 
dangers of mercury, then why is this toxic material still being 
used at all?
    The answer is that the dental establishment continues to 
hold to the scientific fiction that a material that is 
hazardous before it goes into the mouth and hazardous after it 
comes out of the mouth is somehow perfectly safe while it is in 
the mouth. The truth is that it is not.
    A scientific review of mercury amalgams in 1993 conducted 
by the U.S. Public Health Service demonstrated that mercury 
amalgams continuously vaporize and mercury vapor is then 
absorbed into the blood stream and distributed throughout the 
human body as you just saw in that brief film.
    In addition, particles can and do chip off with regular 
chewing, grinding and toothbrushing, further adding to a 
person's mercury load.
    The PHS study conclusively showed that people with amalgam 
fillings have higher concentrations of mercury in their blood, 
in their urine, kidneys and brains then those without amalgams. 
If that is the case, how can anyone believe that dental 
amalgams are harmless.
    There are readily available alternatives to mercury 
containing fillings, and every dentist knows about them. Yet 
organized dentistry will not act to eliminate this dangerous 
substance, thus it is left up to the patients to take the 
initiative.
    And one of the things that kind of disturbs me about this 
hearing today is that there are millions and millions and 
millions of people in California and across this country that 
have mercury in their mouths and we do not have one television 
station here covering this today. And it is something that 
should be brought to the attention of everybody; every man, 
woman and child in the country ought to know about this. 
Unfortunately, most patients are still uninformed about the 
materials used to restore their teeth and the benefits and 
risks of each. And, again, I believe the blame has to be laid 
at the feet of organized dentistry.
    And there is no better proof of that than what has been 
happening here in California. In 1986 the voters of California 
enacted Proposition 65 requiring posting of notices of toxins 
in the workplace or office. Soon therefore, the then Governor 
Deukmajian with his administration listed mercury as a toxic 
substance which required Proposition 65 postings. Nothing 
happened until 1992 when the California legislature passed the 
Watson law, my good colleague's law, requiring the California 
Dental Board to produce a facts sheet to comply with 
Proposition 65 spelling out the risks and benefits of various 
filling materials.
    Named after my good friend and the ranking minority member 
of this subcommittee, Ms. Diane Watson who was a California 
State Senator at the time, the Watson law was a simple common 
sense effort to ensure that the public could make an informed 
choice about their dental care. Ms. Watson has been a tireless 
advocate on this issue for many years and a staunch ally in the 
Congress as the subcommittee works to eliminate this dangerous 
threat to our public health. And I really want to thank you for 
your hard work. And I thank you for being here.
    However today despite the passage of Proposition 65 and the 
Watson law, Californians still are not able to get information 
from their dentists about the dangers of mercury amalgams. So 
far as the subcommittee has been able to determine, the 
California Dental Board's only attempt thus far to actually 
issue a facts sheet occurred in 1993, and the effort was deemed 
by the California Department of Consumer Affairs to be probably 
misleading. Regrettably, the board has never corrected the 
problem.
    In fact, the board's refusal to implement the Watson law 
lead California State Senator Liz Figueroa to sponsor 
legislation to dissolve the board completely and constitute a 
new dental board. The law also mandated the Watson fact sheet 
must be given to every dental patient. And we are going to put 
that in the record. We have a copy of this which we will put in 
the record today, so at least it will be on the Congressional 
Record in case anybody wants to know about it.
    Yet, under pressure from the California Dental Association 
the new dental board has not been any more capable of producing 
a fact sheet than the old one. That two dental boards have yet 
to create a simple consumer friendly fact sheet in more than 17 
years after the implementation of Proposition 65 and 11 years 
after the passage of the Watson law is a grave disservice to 
the residents of California.
    I personally believe that there is no more important 
function of government than doing everything in its power to 
protect the health and well being of its citizens. When 
controversy and uncertainty exists, such as in this case, the 
least we should do is ensure that the public is adequately and 
objectively informed and given the option of choosing what 
materials are used to restore their teeth.
    Today's hearing will focus on the lessons learned from and 
the progress still being made here in California to implement 
full disclosure of adequate information to dental patients.
    Dr. Chet Yokoyama, a member of the California Dental Board, 
former Chair of the California Dental Board Fact Sheet 
Committee and a supporter of the Watson law is here this 
afternoon to testify about why the dental board has had such 
trouble complying with the Watson law. Although Dr. Yokoyama is 
not speaking on behalf of the board nor has he been authorized 
to speak on behalf of the board, I look forward to hearing his 
personal perspective on this issue. And he testified in 
Washington, and I want to thank you once again for being here, 
Doctor.
    I also look forward to hearing from Mr. Shawn Khorrami, an 
attorney who led the recently successful fight in the 
California court system to force dentists to post a Proposition 
65 warning in their offices. While not as comprehensive as the 
fact sheet required by the Watson law, the Proposition 65 
warning is at least an important step in the right direction.
    And, unfortunately, we have learned recently that the 
California Dental Association has tried to stymie even the 
modest level of public disclosure by lobbying against the 
warning on the grounds that it is deceptive. We asked the 
California Dental Association to be here today to participate, 
but they declined to send a representative preferring to send a 
written statement for the record instead. And it is 
disappointing that they choose not to appear today to defend 
their record on this issue.
    However, we will hear from Dr. Harold Slavkin, Dean of the 
School of Dentistry here at the University of Southern 
California who can perhaps helps us better under the organized 
dentistry's opposition to the elimination of mercury containing 
amalgams.
    California's population represents approximately one out of 
every eight people in the United States. So it is not 
surprising that events here can have a ripple effect on similar 
activities and movements in other parts of the country. The 
Honorable Karen Johnson, a State Representative from Arizona--I 
am glad you are here today--is here to talk about her efforts 
to pass legislation in Arizona similar to the Watson law here 
in California. And we appreciate your hard work on that.
    And last but not least, we will hear today from Mr. Parin 
Shah, executive director of Community Toolbox for Children's 
Environmental Health concerning the environmental impact of 
dental amalgams.
    When scraps of amalgam or old fillings are washed down the 
drain, and I know they are because I have seen it out of my own 
mouth, they can end up in our rivers, lakes and oceans and 
eventually into our drinking water. If the fillings do get 
caught in our waste water treatment plants, they settle in the 
treatment plant's sludge which either gets incinerated 
releasing the mercury directly into the atmosphere or it gets 
spread out onto our agricultural fields as fertilizer 
contaminating the food chain. So mercury amalgams are not just 
a public health hazard, but an environmental one as well.
    I want to thank all of our witnesses for being here this 
afternoon.
    And I now yield to Ms. Watson.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T3640.001
    
    [GRAPHIC] [TIFF OMITTED] T3640.002
    
    [GRAPHIC] [TIFF OMITTED] T3640.003
    
    [GRAPHIC] [TIFF OMITTED] T3640.004
    
    Ms. Watson. Thank you so much, Mr. Chairman. And a special 
thanks for coming all the way out to California and appearing 
in my District. And this great University of Southern 
California that has been touted in the last few days of having 
four major trophies. We won the Rose Bowl game.
    Mr. Burton. I know. Indiana was way down the list.
    Ms. Watson. And we are so very pleased. And I would like to 
thank the Government Relations Department, particularly Carolyn 
deMacias and President Sample for working to make this special 
field hearing possible and all of you that have come out this 
afternoon.
    The Human Rights and Wellness hearing today is a very 
important activity for Californians and the rest of the Nation. 
The subcommittee seeks to obtain information about the 
noncompliance, and I want you to focus on why we are here 
today.
    We are focusing on the noncompliance by the California 
Dental Board regarding public disclosure of elemental mercury 
and its use in dental fillings. In previous Government Reform 
hearings we have discussed different aspects about the last 
remaining use of mercury inside the human body. But, the 12 
year failure--the 12 year failure to inform Californians and 
Americans about the risk and the efficacies of mercury is very 
disturbing to me.
    This hearing will focus primarily upon disclosing relevant 
information to patients which will enable patients to make 
informed choices about the type of dental restorative material 
that is used in their treatment.
    What we're trying to do, everyone in this room that hears 
my voice, is trying to make Americans, particularly 
Californians, partners in their own wellness and in their own 
health care. Keep that in mind.
    In 1992 I wrote a law. It is Section 1648.10 of the 
California Business and Professions Code which mandated--1992 
it mandated a fact sheet to be produced by the California State 
Dental Board stating the risk and efficacies of dental 
materials. Over the following 9 years the board has not been in 
compliance. I want to know why. However, I am pleased to report 
that the last administration installed a new dental board, 
because I saw that the dental board of California did not want 
to comply with the law. So, there was a new dental board 
appointed. The new board held hearings on the safety of mercury 
fillings in 2002, but has again failed to fully comply with the 
mandate. Why did it take 12 years? These are intelligent 
professionals. I am appalled that in 12 years they have not 
produced a fact sheet. Why?
    The dental board was required to take into account what 
would be in the best interest of the patient and the public. I 
need to know why a consumer friendly fact sheet, which in July 
2003, that's just a few months back, was approved seven to one. 
And then again eight to zero in November 2003. And it is not 
ready, Congressman, for circulation.
    I am especially disappointed after receiving assurances 
from the president of the board that the fact sheet would be in 
the hands of patients before December 31, 2003, a few days ago. 
I do not understand why the fact sheet should not be released 
today. And I am terribly disappointed that--is there anyone 
from the dental board except Dr. Yokoyama? Anyone else?
    And then they all declined, and I got a letter, a polite 
letter from the CEO of the board declining to appear. Now, what 
does that tell you? Intelligent thinking people can figure it 
out. Not one, except the person who was the former Chair of the 
committee to do the fact sheet, showed up today.
    The fact sheet was produced by a fact sheet committee of 
the dental board and approved by the majority. I want to know 
why the committee Chair who has worked on the fact sheet for 
the last 2 years was suddenly dismissed.
    The efforts by Dr. Chet Yokoyama, a mercury free dentist 
and a member of the California Dental Board, led to the 
production of this fact sheet, which was voted on by the 
majority.
    So, Mr. Chairman, I hope that we can be enlightened today 
by the testimony that is presented here as to why it has taken 
12 years to comply with the mandate. There is a violation in 
the law going on with the dental board. And I don't think 
anyone who sits on that board who does not comply with the law 
ought to remain a member of the board. And if anyone in this 
room thinks that I'm not going to followup, you do not know how 
tenacious I am. I have a partner here who has traveled across 
this country to join me. I resent the fact that it has taken 12 
years. This was already voted on, it should be in the public's 
hands.
    So, I would like to thank all of you for your efforts to 
come to this hearing, and to provide us with the information we 
were seeking on the beautiful campus of the University of 
Southern California. Visit South Central Los Angeles again. 
This is it.
    So, I yield back my time, Mr. Chairman.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T3640.005
    
    [GRAPHIC] [TIFF OMITTED] T3640.006
    
    [GRAPHIC] [TIFF OMITTED] T3640.007
    
    [GRAPHIC] [TIFF OMITTED] T3640.008
    
    Mr. Burton. Well, thank you, Ms. Watson.
    We have a video of that--we do not need to show it. I 
think--unless you feel you--you want to see it. OK. Well, we 
have a video we want to show. This is the last meeting of the 
board?
    Participant. Actually it is a little culmination of the----
    Mr. Burton. I think it is self-explanatory. Could you turn 
the sound up so we could be sure to hear it.
    Ms. Watson. Can everyone see?
    [Video shown.]
    Mr. Burton. The last clip is Dr. Alan Kaye, he's the 
immediate past president of the California Dental Board.
    Ms. Watson. Yes.
    Mr. Burton. I see. OK. I see. OK. Thank you very much.
    OK. We'll now go to our first panel.
    And do you have anything else right now, Ms. Watson?
    Ms. Watson. I do not think so.
    Mr. Burton. Representative Johnson, would you stand to be 
sworn, please.
    [Witness sworn.]
    Mr. Burton.

        STATEMENT OF STATE REPRESENTATIVE KAREN JOHNSON

    Ms. Johnson. Thank you so much. That is a very hard act to 
follow.
    Mr. Burton. And I am not even in vaudeville.
    Ms. Johnson. Well, my name is Representative Karen Johnson. 
I serve in the Arizona House of Representatives.
    Ms. Watson. And welcome.
    Mr. Burton. Welcome.
    Ms. Johnson. Thank you so much. I feel very, very 
privileged to be able to come here today. And I thank you so 
much, both Chairman Dan Burton and Ranking Member Diane Watson 
for allowing me to speak with your committee.
    Chairman Burton, you lead the way in getting mercury 
preservatives removed from childhood vaccines, and you have a 
national reputation for making government agencies accountable 
to the people.
    You are now spotlighting mercury in dental fillings, and 
those of us from Arizona are deeply appreciative of your work.
    Congresswoman Watson, you are the lead sponsor by the 
bipartisan Watson-Burton Bill to ban mercury fillings for 
children, pregnant women and nursing mothers and for eventually 
phaseout their use entirely. We used your bill as a prototype 
in Arizona, and I understand lawmakers all over the country are 
doing the same.
    I am pleased to report that the legislation that I 
sponsored last year requiring full disclosure cleared both 
relevant committees and got to the floor for a vote. Because of 
strong lobbying opposition from the Arizona Dental Association, 
the bill was referred back to a third committee from the floor 
it hopes that it would die in that committee.
    Once again we got the bill to the floor, but the time that 
was incurred in all of this allowed the opposition to pull off 
several supporters from the floor vote, and we nearly lost the 
battle. However, we did get to raise the issue of mercury 
fillings as never before.
    The State's newspaper editorialized twice for disclosure. 
We have been able to bring together a citizens brigade that 
ultimately will prevail.
    Congresswoman Watson, I also understand that as a State 
legislator, as you spoke of here recently, you wrote the State 
Watson law requiring the California Dental Board to disclose 
the risks of mercury fillings. I believe you are focusing today 
on the fact that the California Dental Board will not enforce 
the law, and I have a similar story from Arizona.
    I represent a district in Mesa, AZ, and I entered the 
legislature in 1997. Because of the great interest in the 
health of our children and the increased problems in childhood 
immunizations, I began research into the mercury issue which 
ultimately led me to the Arizona Dental Board and their 
harassment of mercury free dentists.
    One of my concerns is that our regulatory agencies, Federal 
and State, are not enforcing the law and they are restricting 
choices. In the area of dentistry, I was shocked to see the 
State dental board trying to shutdown a dentist because he 
offered mercury free dentistry and other cutting edge 
techniques that were not against the law, always with full 
disclosure and always based on consumer choice.
    As I attended some of the board hearings and alerted other 
legislators about what was happening, the dental board backed 
off their efforts at that time. Unfortunately, the dental board 
did not give up persecuting dentists and continued this 
harassment because some dentists offer alternatives to 
traditional dentistry.
    No profession can change if every member must do what every 
other member is doing. It is fair to debate the cutting edge 
issues in dentistry, such as the advisability of root canals or 
the efficacy of cavitation surgery. The State has no business 
taking sides in issues the marketplace can decide. However, 
organized dentistry seems to feel otherwise.
    One issue of concern is that the American Dental 
Association has a gag rule--yes, a gag rule telling dentists 
not to give warnings about the toxic effects mercury might have 
on the body. Studies now show that mercury does indeed emanate 
from the teeth to the rest of the body and it is important that 
consumers know it. But the ADA thinks otherwise.
    A few years back a scholar at the Arizona based Goldwater 
Institute, Mark Genrich, he wrote several articles about the 
first amendment rights of dentists to advocate an end to 
mercury fillings.
    One of the major changes we need, and we may be close to 
getting in Arizona, is to give low income families a choice not 
to get mercury fillings. AHCCS or the Arizona Health Care Cost 
Containment System in Arizona is our Medi-cal. AHCCS simply 
told dentists to put in mercury fillings. Our assistant 
minority leader and Arizona's only African-American lawmaker, 
Leah Landrum Taylor and myself have co-authored a letter that 
we sent to Governor Napolitano asking that this program be 
changed to include informed choice for our constituents in the 
AHCCS program. We have identified the problem and are currently 
winding it through the bureaucracy step-by-step to secure a 
change, and this is a change that I hope will occur anywhere.
    Now if I might quickly address the problem of our State 
dental board which ignores the law.
    Four years ago, not nearly as long as you folks have gone 
through this, but 4 years in Senate bill 1155 we enacted a 
statute in Arizona stating it is unprofessional conduct: ``To 
fail to inform a patient of the type of material the dentist 
will use in the patient's dental filling, and the reason why 
the dentist is using that particular filling.''
    Now, one would think that every parent and every pregnant 
woman would learn in advance that mercury is the major 
component of amalgam fillings and would also learn the rational 
for and/or against the use of that particular type of filling. 
Not so. In the past 4 years the Arizona Dental Board has turned 
a deaf ear to enforcing this simple statute. A consumer group 
filed a petition. I even appeared personally before the board 
and asked for its adoption.
    As the Chair of the subcommittee overseeing the dental 
board's budget, I have raised this question year after year. 
Promises are made and promises are broken. This year I am 
proceeding with my House bill to ensure the dental board 
follows the law or we have the Governor replace the members of 
the board. I believe that this is what you have done in 
California.
    This legislation will require that the Arizona Dental Board 
send a disclosure to every dentist who will then be required to 
hand to every patient who gets fillings the following 
information: ``You have a choice in dental materials. Amalgam 
filling are 50 percent mercury so the term silver is not an 
accurate term. Notice to parents and pregnant women as follows: 
Because amalgam fillings are 50 percent mercury, the use of 
amalgam fillings is increasingly a matter of public 
controversy.'' Pretty benign.
    My bill would also require neutrality in enforcement where 
informed choice, not the economic policies of the Arizona 
Dental Association govern. The board would be required to post 
such an enforcement policy.
    I would be happy to work with this subcommittee in any way 
that would be useful. And I look forward to the day when no 
child, pregnant woman or nursing mother is subjected to mercury 
fillings simply because dentists in this country refuse to 
inform them of the toxic dangers associated with mercury.
    Thank you so much for your attention to this imperative 
issue.
    Mr. Burton. Thank you, Representative Johnson. I have just 
a few questions I would like to ask you.
    I think you pretty much told us a little bit about your 
experiences there in the Arizona Legislature. And you have had 
a lot of resistance from the State dental board there.
    Ms. Johnson. Absolutely. In fact, Chairman Burton, I guess 
it is OK to say because it is true; they actually have lied in 
their monthly magazine that came out shortly after the 
legislation was defeated in the last session.
    Mr. Burton. And to your knowledge do the dental schools in 
Arizona educate their students about the toxicity of mercury in 
the filling?
    Ms. Johnson. Chairman Burton, we have not had any dental 
schools in Arizona until about 8 months ago. And we have our 
first one actually in Mesa, AZ, whose opening I attended. I am 
not sure they were real happy to see me there. But I do not 
believe that is taught in that school.
    Mr. Burton. Are there many dentists in Arizona that are 
using alternative materials in fillings there because they are 
concerned about the amalgam? Have any of them come and talked 
to you about this?
    Ms. Johnson. Absolutely. Many, many of them have. I have 
had the privilege of talking to them. I would say that between 
25 and 30 percent of the dentists in Arizona are what you would 
call mercury free. And one of the problems we face is that they 
want to advertise as mercury free dentists and our dental board 
has given them a great amount of harassment because of that.
    Mr. Burton. We had a number of hearings on this issue in 
Washington, and the American Dental Association has told some 
of our Members of Congress who are dentists that this is all a 
bunch poppycock, that the mercury is frozen in the amalgam and 
cannot cause any damage. And because of that, some of my 
colleagues who are dentists have been very vociferous in their 
opposition to us doing anything to get the mercury out of 
dental fillings. And it is because it is coming straight from 
their main authority.
    Ms. Johnson. Right.
    Mr. Burton. Doctors listen to the Food and Drug 
Administration and the AMA. Dentists listen to the Food and 
Drug Administration, whom you saw on the television there who 
said, yes, there is a vapor that escapes; that was the FDA 
speaking. And the American Dental Association.
    And so I think the main thing we have to do is just keep 
pounding on this wall until it comes down like the walls of 
Jericho. And I know Diane Watson and I are committed to that, 
and you are as well. And we really appreciate what you do in 
Arizona.
    Ms. Watson.
    Ms. Johnson. Thank you.
    Ms. Watson. I thank you for your courageous work you have 
done.
    When we make public policy, as you know so well, it takes 
years. We try to make public policy that does no harm. So you 
are courageous and you are tenacious.
    And as I was listening very intently to your testimony I 
was wondering what kind of strategy have you put together to 
come back again at this? Can you share it with us, and maybe we 
could pick up some pointers from you. It has taken me 12 years.
    Ms. Johnson. Oh, Congresswoman Watson, no, I was so honored 
to be able to come here to find out more from you what I can 
do, what we can do.
    The sad thing of it is in Arizona this is an issue that is 
really looked down upon. I mean, it is not something that has 
any kind of a priority with other legislators. I have been very 
appreciative of Representative Leah Landrum who has been a good 
friend. We came into the legislature at the same time. And she 
has a great concern for the minority children in our State that 
have no choice but to have the mercury put in their mouth. So 
she has been a great ally in this and has helped rally some of 
her party to this.
    And, unfortunately, I would say that perhaps members of her 
party are more receptive to this than mine. And I would give 
that charge to the fact that the Arizona Dental Association 
lobby appears to give a lot of donations to members of my party 
in a large amount. And when they speak, the members of my party 
just follow.
    Ms. Watson. There has been a gag order placed on dentists 
here in California. And I think you mentioned something about 
them being gagged in Arizona as well. But, the first amendment 
allows them to advertise as mercury free dentists.
    My dentist is sitting in the room right now. He had to go 
to Mexico to practice his craft because he refused to work on 
patients when he was in dental school and to put the silver 
fillings. So his practice is down in Mexico.
    Now, what this says to me is that we are depriving our 
citizens of the knowledge of what effects their bodies. No 
professional can come to me and argue that the most toxic 
substance on the Earth ought to be in amalgam, but that is the 
kind of foolish argument. They ought to know by now that it 
does not work with me.
    And so I really appreciate you coming and talking about 
your struggle. I want you to hold on. Because as you know, 
California is always on the cutting edge and when we start 
something, it moves across the country.
    I am reminded of the smoking policy. It took us 14 years, 
and we were the first State that prohibited smoking on 
airplanes in California air space. Now it is nationwide and 
almost worldwide.
    Do not give up. You are on the right side and history will 
reward you. Be tenacious and remember what you do will improve 
the quality of health for the voiceless and the toothless and 
those that have teeth and they think that they are saving their 
teeth.
    I had a discussion with my dentist. And you know what it 
boiled down to, and my dentist is an African-American 
practicing just a few blocks away from here. He said it is a 
matter of cost.
    How does a professional tell me they are willing to put a 
toxic substance, I do not care how well it fills. You crack a 
nut and your tooth cracks and then the vapors come out. And 
chew gum and the vapors come out. You get a tooth knocked out, 
and the vapors come out.
    So at my age, I went across the border to get all the 
mercury taken out of my tooth. I want everyone to have that 
same opportunity. I want people to be knowledgeable. And I do 
not tolerate professionals coming to me saying that we need to 
block the information.
    So, I want to encourage you to continue to do what you are 
doing. We will prevail.
    Thank you so much.
    Ms. Johnson. Thank you. And I applaud both of you, and we 
will not quit.
    Mr. Burton. Well, we have a mutual admiration society. So, 
thank you.
    Ms. Watson. See, I know who to team up with.
    Mr. Burton. We would like our next panel to come forward 
now. It is Dr. Yokoyama, he is with the California Dental 
Board; Mr. Shawn Khorrami; Mr. Parin Shah and Dr. Harold 
Slavkin, who is the dean of the School of Dentistry here.
    You know, while they are coming up, I would just like to 
say Abraham Lincoln said ``Let the people know the facts and 
the country will be saved.'' About the same thing we are 
talking about here. Just let the people know the facts and they 
will do the right thing.
    Would you please stand, please?
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    OK. Since you have been with us before, Dr. Yokoyama, why 
do we not start with you. Do you have an opening statement?

  STATEMENTS OF DR. CHESTER YOKOYAMA, DDS, CALIFORNIA DENTAL 
BOARD AND FORMER CHAIR DENTAL MATERIALS FACT SHEET COMMISSION; 
SHAWN KHORRAMI, ESQ.; PARIN SHAH, EXECUTIVE DIRECTOR, COMMUNITY 
TOOLBOX FOR CHILDREN'S ENVIRONMENTAL HEALTH AND PAST PRESIDENT, 
 SAN FRANCISCO'S COMMISSION ON THE ENVIRONMENT; AND DR. HAROLD 
SLAVKIN, DDS, DEAN, UNIVERSITY OF SOUTHERN CALIFORNIA SCHOOL OF 
                           DENTISTRY

    Mr. Yokoyama. Yes, I do.
    Chairman Burton and Ranking Member Diane Watson, thank you 
very much for giving me the opportunity to speak here today.
    I am speaking today as an individual dentist. I am a member 
of the dental board of California. I do not speak for the 
dental board and I am giving my opinions only.
    So I come today to tell you about an extremely 
disappointing turn of events. This turn of events directly 
applies to the subject of California's compliance with the 
dental amalgam disclosure policies. As you are well aware, the 
California law required the dental board to produce a fact 
sheet on the risks and efficacies of filling materials. A 
second law mandated that these facts be given to every patient. 
And this would, of course, disclose the health risks of mercury 
in dental amalgam to the public. And to this end I have given 
my time and my energy.
    I have been proud to serve as the chairman of the Dental 
Materials Fact Sheet Committee. And when I approached the 
existing document, I quickly realized that it contained several 
statements that seemed to be incorrect. I called for a hearing 
on the scientific evidence of health risk from mercury in the 
amalgam. We learned that there are scientists with relevant 
scientific studies and publishing in relevant scientific 
journals. When I found there was evidence of a substantial 
health risk to members of our California population, I felt it 
was my duty to give a clear warning concerning that risk.
    It is a risk of exposure to a chemical known to the State 
of California to cause birth defects and reproductive harm. A 
risk that is a fact in California law known as Proposition 65.
    As chairman of the Dental Materials Fact Sheet Committee, I 
was able to develop a document that included this warning. I 
developed this document over a period of time. There were many 
meetings, emails, phone calls and discussions. There was 
stakeholder input. Dentists gave their opinions. There was 
public debate. The dental board had a hearing and in public 
view discussed the contents of the draft fact sheet multiple 
times. I dotted all my I's and crossed all my T's. This process 
was done by the book, step-by-step.
    So why am I so extremely disappointed? I shall explain 
further.
    Last year at the July board meeting this draft document was 
brought to the board and it was voted 7 to l to approve the 
idea of including the warning I spoke of and a message to 
pregnant women and parents. The board then requested that the 
Department of Consumer Affairs make this document into a 
brochure and make sure that the language was consumer-friendly. 
It was agreed upon by the board that at the next meeting in 
November 2003 the board would take the final vote.
    Well just before the meeting in November the California 
Dental Association sent out a letter to each board member 
saying that the Prop 65 warning, the warning about the exposure 
to mercury and its connection with birth defects and 
reproductive harm, was false and misleading. And it must be 
said here that it was the same CDA that sent out the same 
warning to dentists. That warning stated ``Dental Amalgam... 
exposes you to mercury, a substance known to the State of 
California to cause birth defects and reproductive harm.'' The 
letter sent to the board members had an opinion from their 
expert that this statement was false and misleading. A very odd 
chain of events, not easily explained. Nevertheless, this is a 
matter for the Cal-EPA scientists to be notified of; because 
this warning is a matter of law in the State of California.
    So even with this strange letter, the dental board had its 
meeting in November and after deliberations, again voted to 
approve the brochure, 8 to zero. The board agreed that it was 
the right format and ``95 percent complete.'' The committee was 
asked to make minor changes and bring it back in 1 month for a 
final vote. That vote was to occur by the end of the year 2003. 
So I quickly did the board requested editing and sent the 
changes off to the other member of the committee for her 
approval.
    The other committee member was initially too busy. I waited 
an appropriate period of time and re-requested her answer. To 
my surprise, she sent me a completely new draft fact sheet. 
This was laid out professionally and was complete, in brochure 
form already. Several questions were in my mind. Where did this 
new version come from? Why did the president not ask for an 
explanation? Why did the president not direct us to work from 
the twice-approved document that was clearly what the board 
expected? Then there was no meeting in December.
    I was upset by these developments. And then came the most 
disturbing turn of events. At the beginning of the year, I was 
sent an email that said that I was no longer the chairman of 
the committee, and that there was an entirely new committee and 
a new agenda. My attempts to comply with the California Dental 
Amalgam Disclosure Policies had been side tracked.
    I hope that you will urge the dental board to push forward 
for full disclosure.
    And I'd like to mention just a couple of things while I was 
working on this committee that I found. I found several facts 
that make it even more important that the dental board continue 
on its quest to bring full disclosure of health risks in order 
to protect the people of California.
    First, to depend on the FDA as the source of safety of 
dental amalgam is invalid. These are things I learned along the 
way in my opinion. It is often assumed that the FDA has studied 
this health risk carefully. For that matter, it is often said 
that the FDA has approved dental amalgam as safe. I found quite 
the contrary. The FDA claims no jurisdiction over mixed dental 
amalgam because it is mixed by the dentist. The dentist is the 
manufacturer, mixing the mercury and silver particles in the 
office and thereby manufacturing the final mixed product that 
goes into the teeth. The FDA therefore has made no 
classification, does not regulate, has not studied and does not 
approve the mixed amalgam.
    The FDA also did not study or demand studies to classify 
the separate ingredients, which they have classified the 
separate mercury and the separate silver filings. The separate 
ingredients were simply ``grandfathered'' in.
    As late as January 15, 2004, the head of the Dental Devices 
Division of the FDA has said that ``the agency did propose to 
classify'' in other words approve, and I'm putting that word in 
there to help you out. ``The agency did propose to classify the 
encapsulated form of amalgam approximately 1 year ago and at 
the present time that process is on hold.'' When asked why, she 
said, ``The status of the classification as being on hold is 
awaiting additional information from a third review of the 
literature on dental amalgam that is being conducted.'' So even 
the encapsulated form, which would be the closest to the actual 
substance that dentists use to fill teeth is not classified, 
and therefore not approved.
    So the second realization was that the ADA/CDA, the ADA and 
by extension the CDA, has argued successful in California 
courts that ``The ADA owes no legal duty of care to protect the 
public from allegedly dangerous products used by dentists. The 
ADA did not manufacture, design, supply or install the mercury-
containing amalgams. The ADA does not control those who do. The 
ADA's only alleged involvement in the product was to provide 
information regarding its use. Dissemination of information 
relating to the practice of dentistry does not create a duty of 
care to protect the public from potential injury.''
    So this puts the burden squarely on the shoulders of the 
individual dentist who is ``manufacturing'' the amalgam and 
therefore responsible.
    So I found three important questions: One, has the FDA 
approved dental amalgam for safety? My opinion is no. Two, does 
the ADA/CDA owe a duty of care to protect the patient from 
health risks from dental amalgam? In my opinion no. Three, does 
the dental board have the responsibility to protect the public 
from known sources of health risk? Yes.
    Then it logically follows that: One, amalgam is 50 percent 
mercury? Yes. Two, mercury vapor constantly is emitted and goes 
to the organs of the body? Yes. Three, amalgam is the 
predominant source of mercury exposure in people who have 
amalgam filling? Yes. Four, dental amalgam exposes you to 
mercury, a substance known to the State of California to cause 
birth defects and reproductive harm. Yes. Therefore, dental 
amalgam is unsuitable for use in pregnant women and pregnant 
women should be clearly warned.
    I shall continue to press for full disclosure of the risks 
of dental amalgam to patients in order to better enable them to 
make informed choices.
    And I would just like to say that I am disappointed with 
the absence of the California Dental Association. We are trying 
to come to an agreement, but it is difficult if you do not come 
to the table. And I am disappointed with the absence of any of 
the board members or representatives of the board, I will just 
say that.
    And I thank you for your time.
    [The prepared statement of Dr. Yokoyama follows:]

    [GRAPHIC] [TIFF OMITTED] T3640.009
    
    [GRAPHIC] [TIFF OMITTED] T3640.010
    
    [GRAPHIC] [TIFF OMITTED] T3640.011
    
    Mr. Burton. Thank you, Dr. Yokoyama. We will have some 
questions for you in just a few minutes.
    Mr. Khorrami.
    Mr. Khorrami. Thank you, Mr. Chairman. Thank you, 
Congresswoman Watson. And thank you for having me over here. I 
really appreciate your efforts on this issue, and the full 
issue of mercury in pharmaceutical use. It's surely a disaster.
    I am an attorney. I practice mostly in the area of 
pharmaceuticals. I for the past 5 years have focused quite a 
bit on mercury. I have litigated cases, the environmental level 
in terms of waste water and discharge, and certainly in terms 
of exposure having to do with a variety of products, even 
florescent lamps, fish, vaccines. Currently I litigate vaccine 
cases with Thimerosal nationally. I am lead and liaison counsel 
both in California, and I sit on the board for the National 
Steering Committee for vaccine cases.
    With respect to amalgam, I have litigated class cases, 
public interest cases, individual personal injury cases. One of 
my cases is actually pending in front of the California Supreme 
Court right now.
    And I have also handled cases involving Proposition 65, 
again in the entire gambit of toxins that are out there, but 
particularly with respect to mercury.
    Last year, about exactly a year ago, the Superior Court of 
San Francisco entered an order, and that order required 
dentists in this State to give warnings, warnings as to mercury 
exposure and specifically mercury expose. I know this because I 
was the attorney who handled it for over 2 years. I negotiated 
the settlement, and it was the California Dental Association 
that actually came and solicited the concept of settlement. I 
did not go to the California Dental Association. I was 
interested in dentists. And I will get into why I did that, but 
getting into Prop 65 and sort of looking at the background a 
bit.
    Proposition 65 was a ballot initiative that the citizens of 
this State placed on the ballot. And one of the premises was, 
one of the geneses of this ballot initiative was the people's 
distrust of government and the failure of their government 
agencies to protect them with respect to toxic materials.
    Proposition 65 then requires disclosure, and specifically 
warnings when the citizens of this State are being exposed to a 
toxic material. Mercury, of course, and all of the compounds, 
have been listed as Prop 65 chemical for ages.
    Now, the manufacturers of amalgam have been under a 
continuing duty to warn, and they have settled cases requiring 
the warnings. This was one of the first situations I had ever 
seen, and I believe it is the only one I have ever seen, where 
you have a manufacturer that puts together a warning scheme and 
the reason for that warning scheme is for it to get to the 
ultimate consumer, the exposed individual. This industry was 
the only one that I saw where although manufacturers were 
providing these warnings, it never got to the ultimate 
individual. And who is there in the middle of the process but 
the dentist; the dentist, the dental association and perhaps 
the dental board.
    This to me was also the only industry that I could find 
that when confronted with this issue of what are you doing with 
the mercury, they just sat back and clung on to their current 
practice of keeping this in use. When you look fluorescent 
lamps, those guys have taken the mercury down even though there 
is really not much of a possibility of individual exposure. 
When you look at vaccines and you have been very involved in 
that process, there is at least been a reduction. A lot of 
manufacturers said OK, fine, we are going to take some of these 
out.
    In dentistry there is not even the concept of reduction of 
this.
    Now, going back to the Prop 65 settlement, the CDA after I 
went and sent out notices to the dentists that I was just going 
to sue them for not providing warnings to their patients, the 
CDA came to me and said that it wanted to settle the matter on 
a statewide basis, and here is the reason they gave me: Was 
that they wanted uniform warnings across the State, warnings 
that were accurate. And we held out and we made sure that the 
warnings included mercury and talked about exposure, not that 
amalgams contain mercury.
    Now, when this was going on the court held three separate 
days of hearings. The court took in evidence. The court took in 
testimony. Well, not testimony. The position of the various 
side. The Attorney General of this State was present. The 
California Dental Association was present. Dentists were 
present. And the American Dental Association was present.
    The American Dental Association vehemently disagree with 
the concept of giving warnings, but then also disagreed with 
the form of the warning. And after considering everything, the 
court said that the warnings were appropriate, that the 
settlement was appropriate and they were to be given.
    Now mind you, there was no discretion given to the dentists 
in that situation. The warning has to be given. You can choose 
whether to give a warning or not to give a warning. It has to 
be given. And, in fact, that discretion was taken out of the 
hands of the dentists in the form that the warning took, which 
was a posted sign. It cannot be inside of an informed consent 
form. It is not going to be something that you just tell the 
patient. You first have to put it up and the patient has to see 
it, and the patient has to read it. So that is the way we did 
this.
    Now, going to the Watson law, as I read the Watson law we 
talk about safety, and I know Dr. Yokoyama talked about safety, 
and I know Dr. Slavkin is going to be on the other side of the 
safety issue, for sure. But that is not the point of the law.
    The law says risks and efficacies. Safety is irrelevant. It 
has nothing to do with it. We have millions of products in our 
safety that are considered safe yet go out with warnings 
because they have risks, because you have to have cautions, 
because we have precautions. OK. Pharmacueticals is a prime 
example of exactly what that is. That is why there is labeling 
requirements. That is why we have this.
    So safety, forget about. Information, disclosure; that's 
the point.
    Now, when the dental board comes in and decides well we do 
not feel like giving that warning, and this one is OK, and this 
way it is beneficial and the other way it is not; that is not 
the discretion that the Watson law gave. That is not a 
discretion that any of us gave it. That was not what we gave 
the dental board when we passed Proposition 65. We said we do 
not want them to have discretion. We do not trust them. And 
with this dental board, I don't think we should trust them.
    But this is exactly what is going on: They are sitting 
there and saying well we choose what goes out and we choose 
what the patient gets. And let us put aside Proposition 65. Let 
us put aside the Watson law. What about informed consent? Is a 
profession entitled to decide what is a risk, what it will 
disclose, what it will not disclose? The California Supreme 
Court has said emphatically absolutely not. Informed consent is 
a legal standard. That means Dr. Slavkin cannot get together 
with his colleagues and then decide what is something that we 
disclose and what is something that we do not disclose.
    Even if the dental board of California wanted to do a 
position statement on safety, that still does not do anything 
to the Watson law and the dentist's duties under informed 
consent. What we want is full disclosure to the patient. The 
concept of informed consent is full disclosure for the patient 
so that the patient, being the ultimate decisionmaker, can 
decide I want this stuff or I do not want this stuff. And also 
can be in a position to decide whether that safety position 
that the dental board took is a valid position or is not a 
valid position.
    That is why not only it is what the dental board illegal, 
not only does it not have discretion to do what it is doing, 
but it is also against this State's public policy. It is also 
against, frankly, every State I have looked at, the public 
policy of that State.
    With that, I am ready to answer questions, Mr. Chairman.
    [The prepared statement of Mr. Khorrami follows:]

    [GRAPHIC] [TIFF OMITTED] T3640.012
    
    [GRAPHIC] [TIFF OMITTED] T3640.013
    
    [GRAPHIC] [TIFF OMITTED] T3640.014
    
    [GRAPHIC] [TIFF OMITTED] T3640.015
    
    [GRAPHIC] [TIFF OMITTED] T3640.016
    
    [GRAPHIC] [TIFF OMITTED] T3640.017
    
    [GRAPHIC] [TIFF OMITTED] T3640.018
    
    Mr. Burton. Well, I will have a few questions for you in 
just a few moments, and I am sure Ms. Watson does as well.
    Dr. Slavkin.
    Mr. Slavkin. Thank you. And welcome to the University of 
Southern California. I am 1 of the 19 deans of the different 
colleges that make up USC, and I am very pleased that we are 
sitting in a room that we call Town and Gown, which is the 
opportunity of the university to engage with the larger society 
about issues of mutual importance.
    One of the issues that I have heard today, and I know in 
the reputations of both of your distinguished records, that you 
are passionately and unconditionally interested in the health 
and well being of all Americans, not only in this District but 
across the country. I share that with you.
    From 1995 to 2000 I served as the Director of the National 
Institute of Dental and Cranial Facial Research, one of the 
institutes that makes up the NIH, and it's the primary funder 
for research scientists not only in this country, but out of 
the country to work on problems related to dentistry and the 
cranial facial complex. In that capacity I had the opportunity 
to review thousands and thousands of papers and grants, and 
work closely with CDA and the Environmental Protection Agency, 
and the FDA and my colleagues in other institutes. And I would 
be more than happy to discuss from that perspective anything 
that you might be interested in.
    I came here at the request of Steve Sample to join his 
leadership team 3 years ago. And began as dean of the USC 
School of Dentistry. We are 107 years old. We have almost 900 
students in residence at any given time. And we have clearly 
been part of the education and training of dentists in the 
southern California region and beyond.
    I wanted to mention to you that the Watson legislation, as 
I learned about it and as it became clear that I was a steward 
of dental education, of best practices, of standard of car, 
that I wanted to ensure that every faculty member, every 
student, every staff member, every alumni knew that there were 
risks whether they be potential or less than potential risks in 
the handling of mercury.
    We immediately posted the signage throughout the School of 
Dentistry indicating the potential risk of mercury for 
pregnancy throughout the life span and in the elderly.
    In 2001 when the board made available something called the 
Dental Materials Fact Sheet, we adopted it immediately. It is 
in the hands of every patient. We treat thousands and thousands 
and thousands of patients from Bakersfield to the San Diego 
border. Every patient receives this sheet. Every patient sees 
the signage in the school. Every patient is questioned do they 
understand, do they have questions and they can evaluate from 
their particular point of view the risk and benefit of all 
procedures that are done in a health care setting.
    Now, at the same time I wanted to ask you if you would 
entertain in the spirit of the videos that we saw earlier, in 
the remarks that you both made and the testimony given, I would 
like to ask you if you would take a few moments. And I brought 
copies that might be inserted for you to take a look at.
    There is a paper from Tom Clarkson, Laszlo Magos and Gary 
Myers that was published in the New England Journal of 
Medicine, and it came out on October 30, 2003. The title of the 
paper is ``Current Concepts in the Toxicology of Mercury, 
Current Exposures and Clinical Manifestations.'' The paper goes 
into a critical analysis of the issue that are near and dear to 
your heart and mind. It evaluates the very critical references. 
It was supported by the National Institutes of Health. It is 
not affiliated with the dental school or the dental profession, 
or any of those implied self-interested communities. And I 
believe you would find it, that it talks to the grayness of the 
subject matter. It talks about the level of exposure per 
kilogram by day body weight. It talks about 0.1 micrograms 
being the ideal threshold from the EPA statements of 2001, from 
the WHO responses and analysis of 2002. And I think it is a 
very useful scientific peer reviewed presentation that would be 
of value to all of us in weighing the risks and the benefits of 
ethel mercury or methyl mercury, or mercury out of the ground 
and the applications in society.
    From my background as a scientists working at the NIH and 
in my career as a scientist, I believe that the available peer 
reviewed scientific evidence clearly indicates that there are 
risks to the use of mercury. And, the scientific evidence 
clearly supports that there are many opportunities of utilizing 
mercury where the benefit significantly outweighs the risk.
    Thank you for the opportunity to be with you, and of course 
I would be more than happy to entertain any question that you 
might have.
    [The prepared statement of Dr. Slavkin follows:]

    [GRAPHIC] [TIFF OMITTED] T3640.019
    
    Mr. Burton. We would like that. Thank you, Doctor. We would 
like to have your documents and we will put those in the 
record.
    And I am sure Representative Watson and myself would like 
to ask you----
    Mr. Slavkin. This is the signage throughout the School of 
Dentistry, the fact sheets that all patients receive and these 
are the copy.
    Mr. Burton. OK. Thank you very much.
    Mr. Shah. And thank you, Chairman Burton and Congresswoman 
Watson for allowing me to speak.
    As you introduced me, I am the executive director for 
Community Toolbox for Children's Environmental Health and today 
I speak to you as a member of San Francisco's Commission on the 
Environment and past president of the Commission on the 
Environment for San Francisco.
    Over the last 2 years we, as a Commission, have looked into 
the dental mercury issue as it relates to the citizens of San 
Francisco. And I am here today since, in part, fuller 
disclosure certainly but also to talk about an example of the 
solution to addressing mercury poisoning in our water and 
mercury contamination of fish.
    As a policy body for San Francisco, we have decided to 
define the mercury issue as one, a right to know issue just as 
you have. Certainly the amalgams that dentists put in are not 
just silver. They rightfully should be known as mercury 
amalgams. And myself, I have four cavities from eating too many 
chocolates, I guess, as a child and not flossing which is about 
enough mercury in my mouth to contaminate a 20 acre lake and 
make it unfit for fishing. So, certainly I should know that and 
everyone should know that. And we support a brochure on the 
part of the California Dentists Association.
    We also defined the mercury issue as a human rights issue 
or an environmental justice issue. All citizens in San 
Francisco and America have a right to clean air, safe water and 
ample food, access to open space which is free of toxins that 
could be harmful to their health. And so with that said, we 
decided to say you know we can go about the process of 
policymaking by saying there is science that says this, there 
is science that says that, here is a number that is safe and 
that number is four, here is a number that is safe and that 
number is seven. We chose to step back from that discourse a 
little bit and provide a cautionary approach to our 
policymaking with regard to this particular issue and try to 
implement the precautionary principle issues touched on earlier 
and which other speakers have talked about.
    So what we did was we did a little bit of research. We held 
hearing. We got our information. We had dentists, the CDA, the 
ADA, environmental groups, activists come and talk to the 
Commission. And we did our own research. And we found that 
dentists are the largest contributor of mercury to our waste 
water facilities. And that, in fact, on our waste water 
facilities is an enormous financial impact on the citizens in 
San Francisco.
    We evaluated the policies that we had enacted 10 years ago 
and 12 years ago. And we found that voluntary compliance on the 
part of dentists to reduce mercury in waste water systems just 
wasn't working. As of September 2003 there was less than 1 
percent of the dentists in San Francisco that were using 
amalgam separators to separate essentially when the filling 
comes out, to separate the mercury and the amalgam from what 
goes into the waste stream. That is less than 1 percent.
    So we decided that we wanted to develop a mandatory 
permitting process. It is a very simple process whereby 
dentists, as a manufacturer, as to submit a permit for its 
discharge into the waste water system. The permitting process 
was developed in conjunction with the California Dental 
Association as well as the San Francisco Dental Society and 
activists, city workers, regulators. And we came to the 
solution of providing two options for dentists. They could 
either purchase amalgam separators so that the mercury would 
stay and it could be reused, recycled or disposed of 
appropriately at a cost of about $1,200, what the average has 
been, or they could go through a monitoring process and not 
purchase a processor or implement best management practices as 
they may have learned in their schooling or in their continuing 
education.
    Since we have done that, which we began the education and 
the process for that in September 2003 when we had less than 1 
percent of dentists that were using separators, we now have 76 
percent of dentists in San Francisco who are using these 
amalgam separators. That reduces the amount of mercury that 
enters into our water system, into our fish and subsequently 
into our bodies, especially of bodies of low income individuals 
in the immigrant communities that live on the fish that they 
get, that they fish for everyday in the morning from the waters 
of San Francisco Bay. That reduces the amount of mercury by 90 
percent. It is just enormous.
    And as we talk about moving forward, as we talk about 
moving toward the elimination of mercury or amalgams in 
dentistry, you know we will have other issues which is what are 
we going to do with all this stuff now that we are going to 
make sure we collect. So California is paving the way in many 
ways. Hopefully, San Francisco is laying the seed for the next 
thing for California to do, which is in its waste water we 
certainly must mandate some way, a process where separators can 
collect the mercury before it gets into the environment and 
into our bodies.
    I just wanted to rattle quick statistics off. Like I said, 
the two options of the 644 dentists office is 76 percent have 
chosen to install separators. We have offered and the process 
that really supported the engagement of the dentists was we 
offered small rebates through a bit of a local grant that we 
got from the California EPA.
    We will continue to do education of the staff and the 
dentists so that they continue to use the best management 
practices. And we have developed various fact sheets which 
actually are part of the packet that I gave you all. We also 
have it on line. They are available.
    And we also have an expo. And this is where we talk about 
the economy and we talk about stimulating the economy. This is 
where something that is good for public health and good for the 
environment can actually potentially spur economic growth.
    What we did was we also engaged with producers of the 
amalgam separators and said we most likely are going to do this 
and there may be more dentists that come to purchase your 
equipment. And they on their own started to educate the 
dentists about their products.
    We held a vendor expo where we had folks come and talk 
about their wares. We have a list of vendors, which is also 
part of your packet, which meets certain criteria that we went 
through. So we sort of flushed that out.
    And they are excited. They are engaged in this and they are 
helping support it because it helps their bottom line and they 
know that it helps the environment and it addresses human 
health issues.
    So in closing, I say that as we move forward we certainly 
need to keep asking the CDA to do the right thing. Sometimes 
volunteerism, as I am sure you have learned Congresswoman 
Watson, does not always work. You know, sometimes it takes a 
little bit of a firmer hand and a little more tenancy that may 
twist a bit, right? And maybe a bit of a mandatory process, 
especially when it comes to the health of our children.
    We have done this in San Francisco but we cannot keep the 
Bay free of mercury unless other jurisdictions who are in the 
Bay join us in this. And we hope for the State law that looks 
at permitting processes or even Federal regulations that looks 
at permitting processes. This came about because of, actually, 
a reduction in the amount of mercury that our waste water 
system was asked to put out.
    So we look forward to working with you in any way and 
talking about how to implement it in local jurisdictions with 
State law and so on.
    Thank you.
    [The prepared statement of Mr. Shah follows:]

    [GRAPHIC] [TIFF OMITTED] T3640.020
    
    [GRAPHIC] [TIFF OMITTED] T3640.021
    
    [GRAPHIC] [TIFF OMITTED] T3640.022
    
    [GRAPHIC] [TIFF OMITTED] T3640.023
    
    [GRAPHIC] [TIFF OMITTED] T3640.024
    
    [GRAPHIC] [TIFF OMITTED] T3640.025
    
    [GRAPHIC] [TIFF OMITTED] T3640.026
    
    Mr. Burton. Thank you.
    Let me start with you, Mr. Shah. You know we had, I think 
from Newport News, VA the Naval base down there, the waste 
water treatment system stopped the Naval base from flushing 
things from its dentistry lab there where they took care of the 
Naval, the personnel of dentistry. They stopped them from 
flushing that into the waste water treatment plants down there 
and they had them put it into barrels because they were 
contaminating the water supply down there so severely. So the 
problems that you are talking about that were very real in San 
Francisco are not just a problem for San Francisco, you are 
absolutely correct. And I would just like to say if we did not 
have mercury amalgams, how much would that reduce the amount of 
mercury in the water that goes into the fish that gets into the 
food chain if there was no mercury amalgam.
    Mr. Shah. Absolutely.
    Mr. Burton. How much?
    Mr. Shah. How much would it reduce?
    Mr. Burton. Yes, 100 percent?
    Mr. Shah. 100 percent.
    Mr. Burton. 100 percent. OK. That is the first thing.
    So we know that we reduced or removed mercury from people's 
teeth, then dentists would not be flushing it down the drains, 
it would not be going into the waste water treatment plants, it 
would not be getting into the water and it would not be getting 
into the fish, and it would not be getting into our bodies when 
we eat the fish. So there is something that we have not talked 
too much about, but it is pretty relevant.
    Mr. Shah. Yes.
    Mr. Burton. Because it is not just the teeth we are talking 
about.
    Mr. Shah. And may I say----
    Mr. Burton. Go ahead, sure.
    Mr. Shah. That we did try. Actually that was one of the 
first things that we tried to do was basically ban amalgam 
fillings in San Francisco. And we leave that to your wisdom----
    Mr. Burton. That is what we are working on, yes, right now.
    What is the cost difference, Dr. Slavkin between a 
composite filling and a mercury filling? Cost?
    Mr. Slavkin. Maybe three fold difference.
    Mr. Burton. Three fold difference? If it was done on a 
massive basis if the vessel was used to replace amalgams, would 
the cost go down?
    Mr. Slavkin. I do not know the benefit of volume. It is a 
very technique sensitive procedure so that the time it takes to 
do--a composite done poorly is poor.
    Mr. Burton. Sure.
    Mr. Slavkin. So the time involved and the technique 
sensitive nature, I do not know if there is an economy of scale 
by volume.
    Mr. Burton. You know, the thing that interests me about 
scientific research, we went into the space program and 
spinoffs from the space program turned out to include 
microwaves. I remember when I had my first microwave. How in 
the world can they cook a baked potato like that, when it takes 
me an hour when I put it in the oven. It is just not possible. 
But it happened.
    Do you believe that if we made it mandatory that mercury be 
taken out of amalgams, that we might find an alternative source 
of composites that maybe would make it less expensive? I mean 
if the----
    Mr. Slavkin. Well, people are today engaged in developing 
biocompatible better materials for all kinds of applications, 
hip replacements, bone replacement and all of the----
    Mr. Burton. You are the dean of dentistry here. Have you 
done any research or are you into----
    Mr. Slavkin. I have personally done research and my 
colleagues have done research trying to develop a replacement 
for enamel, a biological enamel. That is a research project and 
we hope that will succeed.
    Mr. Burton. Have you tried to find a substitute for the 
amalgams?
    Mr. Slavkin. I personally have not, but----
    Mr. Burton. Has anybody that you know of?
    Mr. Slavkin. But in Gaithersburg, sort of down the road 
from the NIH in Gaithersburg, MD there is a facility called 
Paffenbarger Institute.
    Mr. Burton. Yes.
    Mr. Slavkin. And they have a team of people working on a 
number of restorative materials that do not contain mercury or 
nickel or cadmium or beryllium which are some of the other 
components in an inorganic solution.
    Mr. Burton. Well, in any event, I think that science being 
what it is could come up with an alternative. I certainly do 
not know what it would.
    Mr. Slavkin. Sure.
    Mr. Burton. But it must be better than having 50 percent 
mercury being put into a person's tooth. And if for no other 
reason than stopping the environment from being polluted 
because of amalgams being flushed into the waste water 
treatment systems and into the rivers and everything, that 
alone seems to me to be a reason to work toward getting rid of 
amalgam.
    But let me ask you a question, Mr. Khorrami. You are a 
lawyer. When people go on a bank board or a savings and loan 
board when we had the savings and loan scandal, those people on 
those boards are subject to liability if they do make decisions 
that are not in the best interests of the people that they 
represent, is that correct?
    Mr. Khorrami. That is my understanding.
    Mr. Burton. What about this board here in California? If it 
is proven, and I will be and it already has been, but I believe 
at some point it is going to be so conclusively proven that 
there will be no doubt.
    Would you say that the dental board here in California 
might be subject to a substantial lawsuit because they did not 
carry out the will of the people in Proposition 65?
    Mr. Khorrami. Well, it is funny you should mention that. I 
think it is under a duty to answer just such a lawsuit. We 
filed one about a month ago. And we will go through the process 
of deposing each and every board member if we have to and 
getting all the documents we need to in order to prove whatever 
we need to to make sure that those Prop 65 warnings are getting 
out and if they are not, yes, we will hold them liable.
    Mr. Burton. Let me ask you one more question, because I 
think that is a real risk those people are facing. I think they 
are really facing, and they probably do not have that kind of 
coverage because a lot of people do not even provide that kind 
of professional liability coverage anymore. That was my 
business before I went into Congress. And a lot of people do 
not want to get on boards anymore because of the liability 
exposure. And I do not know if anybody is here from the State 
dental board, but I hope you will get that message back to them 
that I believe they are exposing themselves to a real liability 
if they do not comply with the law.
    Now let me ask you a----
    Participant. [Off microphone.]
    Mr. Burton. Good. Do that.
    Let me ask you this, the tobacco settlement that we had, 
and I know that it has been said here today that the 
manufacturers are the doctors or dentists themselves, but the 
dental association which is after that putting severe pressure 
on dentists not to publicize that they are amalgam free or 
mercury free dentists, would you say that there might be some 
exposure to them down the road like the exposure that was 
released by the tobacco industry when it was proven beyond a 
reasonable doubt that tobacco caused cancer and emphysema and 
all those other things?
    Mr. Khorrami. Well, we feel there is. They do try to keep 
themselves about one step removed by saying well we do not 
manufacture this stuff, we do not have anything to do with it. 
We just sort of speak out in the public. It is amusing that 
they do raise up the issue that they have a person and their 
right to say all this stuff, and yet the other side does not 
have any person and a right. But that would be the only 
different. Past that, we feel that----
    Mr. Burton. The fact of the matter is, though, I do not 
know if you agree or not, that there is a possible exposure 
there and the dentists themselves have an exposure if they 
continue to knowingly put a toxic substance in people's mouths 
and they do not warn them about it and ultimately it is proven 
that it results in neurological damage.
    Mr. Khorrami. Absolutely. And one thing that I want to not, 
actually the dental association were all too happy in Maryland 
when we were arguing some motion against them to hang their 
members out to dry by actually suggesting that we have sued 
their members rather than them for the amalgam issue. And I 
thought it was amusing that the members have been paying all 
these dues to have the dental association walk into court and 
say you should have sued our members.
    Mr. Burton. Yes. You know, I have not been a big fan of 
trial lawyers in the past and if you watch my record in my 
Congress, you have probably seen that. But I have to tell you, 
when something as obviously wrong is going on, it seems to me 
that the public has a right to be able to sue the pants off 
these people until they get this thing right.
    You know, Dr. Slavkin, you saw the film that we had on this 
a few minutes ago. You talked about the risk benefit issue. It 
is obvious that the mercury smoke does come off of a dental 
amalgam. There is no question about that in your mind, is that?
    Mr. Slavkin. May I respond?
    Mr. Burton. Yes. Yes. I mean, do you or do you not agree 
with what was on that screen?
    Mr. Slavkin. I saw what was on the screen. I do not agree 
with the interpretation of what was on the screen.
    Mr. Burton. What do you think it was?
    Mr. Slavkin. Well, in doing science----
    Mr. Burton. Yes.
    Mr. Slavkin [continuing]. You raise an idea that you want 
to test and you make measurements, and you convert and you 
develop tests to determine the biological significance, whether 
it is toxicity or not toxicity. So in the case of seeing a 
vapor and then interpreting what that vapor to be bad without 
knowing the biological burden, the amount of material, the 
responding I believe is one of those arguments a little while 
ago Mr. Shah inferred that the source of mercury in San 
Francisco Bay was from dental amalgam. And all of us in this 
room, I believe, would acknowledge that the source of mercury 
in Santa Monica Bay or in San Francisco Bay or in Boston Bay is 
accumulation of hundreds of different sources and the dental 
amalgam source is minuscule.
    Mr. Burton. Well, let me interrupt you. Yes. In Newport 
News, VA we had the commander from that Naval base there. We 
had the people from the sewage water treat plant there. And 
they said that there was no question that the mercury amalgams 
were causing a huge problem for the water supply in that area. 
As a matter of fact, they said they would no longer accept any 
refuse coming out of that facility and they had to put it in 
drums and take it away to a storage facility so they could 
figure out a way to dispose of it. So, you know, sometimes I 
think that scientists do not want to look at things as they 
really are.
    I am not a scientist. But the fact of the matter is, we 
have scientists appear before our committee from the University 
of Kentucky and elsewhere who attest to the fact that the 
things that you saw on the screen was coming from the mercury 
amalgams and it could cause neurological damage.
    I have talked too long. Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman.
    Dr. Slavkin, give me your title again?
    Mr. Slavkin. I'm a dentist. I am the dean of the School of 
Dentistry at USC.
    Ms. Watson. You are the dean of the School of Dentistry at 
USC?
    Mr. Slavkin. Yes.
    Ms. Watson. All right. As you train your dentists, your 
students who are dentists, what do you tell them about the 
various fillings, particularly amalgams? I want to focus in on 
amalgams. What do you train your potential dentists to do with 
the amalgam before they put them into the filling, before they 
themselves mix them and once they remove them? Remove a tooth 
that might have the amalgams, what do you tell them?
    Mr. Slavkin. Well, I am very impressed with our faculty. We 
have 100----
    Ms. Watson. No, no, no. I want to keep you on track. 
Because this hearing is about----
    Mr. Slavkin. Right.
    Ms. Watson [continuing]. This particular leaflet. Now, what 
do you train----
    Mr. Slavkin. If you would like me to respond, I would be 
more than happy to.
    Ms. Watson. Yes. I want you to respond to my question.
    Mr. Slavkin. I think the----
    Ms. Watson. Your only response has to address what you 
teach the potential dentists about the handling of mercury 
amalgams.
    Mr. Slavkin. Right. All of the dental students are exposed 
to the guideline that I gave you a few moments ago, which has 
all of the restorative materials and filling materials that are 
used by their name, by the application, by the ingredients. So 
they have that.
    All of the students have the current EPA guidelines for the 
handling of dental amalgam. It is basic--and all other 
restorative materials as part of their education. All of the 
students. The same goes with local anesthetics or sedation 
anesthetics.
    Ms. Watson. Let me give you a direct question. Let me see 
if you can answer it.
    Does your faculty ever mention mercury amalgams?
    Mr. Slavkin. Of course.
    Ms. Watson. OK. Good. Direct answer.
    What do you teach your students about the handling of 
mercury amalgams?
    Mr. Slavkin. They are taught how to handle it, how to 
dispose of it, how to look after it in the most professional 
prudent fashion. They are also taught that it has risks because 
dentists are people also. And this dentist in front of you is a 
member of the ADA and is a member of the CDA and is not gagged 
by anybody and is speaking directly to you and is speaking on 
behalf of the USC School of Dentistry where we pride ourselves 
on making sure that all students understand the risks and the 
benefits of all procedures that they are involved with either 
as patients or as providers.
    Ms. Watson. Thank you so much for that answer.
    Now, have you seen this brochure?
    Mr. Slavkin. Yes.
    Ms. Watson. Is there anything in here that does not do what 
you do for your students? Is there anything in here you would 
like to contradict?
    Mr. Slavkin. In front of you is the----
    Ms. Watson. No. No. This is the subject of this hearing. Is 
there anything in here----
    Mr. Slavkin. I cannot.
    Ms. Watson. Take it down.
    Mr. Slavkin. The October 2001 version, which I gave you, we 
have read carefully and distribute that throughout the school. 
I am not sure----
    Ms. Watson. Is that the October 2001 version?
    Mr. Burton. No, he is referring to the one that he handed 
you.
    Ms. Watson. No. No. Sir, my reference is to that pamphlet. 
That is the one that was approved by the dental board.
    Mr. Slavkin. I have not been given this pamphlet before.
    Ms. Watson. OK. What I would like you to do is read it 
thoroughly. Address a letter to me and the Chair, if you 
choose, as to what you find inaccurate in there.
    Mr. Slavkin. Inaccurate?
    Ms. Watson. Inaccurate.
    Mr. Slavkin. Yes.
    Ms. Watson. OK. And whether you feel that complies with my 
legislation of 1992.
    I want to really make it clear for everyone within the 
sound of my voice, the purpose of the hearing today is to 
investigate why the California Dental Board has not released a 
mandated pamphlet.
    Now, I must commend you for putting this out. I do not 
think it is circulated wide enough, because if I heard you 
clearly, it goes to the students who are dentists and those 
dentists----
    Mr. Slavkin. No. It is posted. It is for all patients. All 
patients.
    Ms. Watson. But all patients where?
    Mr. Slavkin. Wherever we are located. We are located----
    Ms. Watson. Where are you located?
    Mr. Slavkin. We have a mobile clinic that goes as far north 
as Bakersfield. We have 14 of them.
    Ms. Watson. Does it go to Eureka?
    Mr. Slavkin. We are not in Eureka.
    Ms. Watson. OK. You just answered my question. It is not 
generally circulated----
    Mr. Slavkin. Why would you ask if we were in Eureka?
    Ms. Watson. Eureka is part of California.
    Mr. Slavkin. But, I mean, we are----
    Ms. Watson. OK. Listen. Let me----
    Mr. Slavkin. But the Dental School----
    Ms. Watson. Let me zero in. You cannot snow me with the 
scientific talk and methodology, OK.
    Now, I am the author of a mandated bill that has been 
completely ignored by the board of professional, supposedly 
dentists and maybe there might be a non-dentist. I am terribly 
upset because we have been working with Dr. Yokoyama. And this 
was, the one that you were just handed, a leaflet that was 
approved by the majority of the board.
    Then they come back in and they give us something that has 
never been seen by the Chair of the committee. It all 
gobbledygook as far as I am concerned when professionals come 
and try to argue scientific methodology to me. Because that is 
not what my bill was all about. I directed the California 
Dental Board to come up with a brochure that would be user 
friendly, elementary language, not four pages of a scientific 
debate. That is not what I wanted to do.
    Mr. Yokoyama. Ms. Watson.
    Ms. Watson. Yes.
    Mr. Yokoyama. If I could just respond quickly. I understand 
Dr. Slavkin's situation here. He has really been asked to come 
and talk about this, but he is not responsible for the 
disruption, so to speak, of the fact sheet as it has gone 
through the process. So, I do not think he in particular has a 
particular responsibility.
    I understand that you would like him to read the pending 
brochure, and I think that would be important. But I do not 
think that it is his responsibility here today, particularly, 
concerning that, what I called an extremely disappointing turn 
of events.
    Ms. Watson. That is not where I am going with this.
    Mr. Yokoyama. Fine. I just wanted to let you know.
    Ms. Watson. I just wanted everyone to be clear. Am I not 
speaking English?
    Mr. Yokoyama. Yes.
    Ms. Watson. OK. My main concern for having this hearing is 
to find out why these California Dental Board has not complied 
with the law. OK?
    Now, do not give me the scientific gobbledegook about 
research. That is not why we are here. That is another debate 
at another time.
    I commend you, Dr. Slavkin, for putting this in every 
office where your program goes. Eureka is part of California. 
You do not go that far, so they do not have this. They do not 
see this. What I want is for anyone who goes to a dental office 
to be aware of what you are putting into their system. I do not 
know why that is so difficult to do.
    Can you explain that to me, Dr. Yokoyama. I see the hand in 
the back.
    Mr. Yokoyama. Well, no.
    Ms. Watson. Can you explain why that is difficult.
    Mr. Yokoyama. I tried to explain in my testimony that it 
was done. It was in the hands. I mean, you see the result. The 
brochure ready. It was made ready by the California Department 
of Consumer Affairs. They went over it very carefully, the 
language was----
    Ms. Watson. By the way, excuse me for a minute. The bill 
was written in the Consumer Affairs Code section intentionally 
because my intent as Chair of California Senate Health and 
Human Services Committee for 17 years was to protect the 
consumer. So that is why we wrote it in that code. Some people 
do not get that. It is about protecting the consumer.
    Mr. Yokoyama. Right.
    Ms. Watson. And I simply ask. Excuse me. I simply ask that 
the board of professionals come up with a leaflet that would 
show the benefits and the deficits, the risk as well as the 
benefits.
    Mr. Yokoyama. And I believe that I have come up with that. 
I believe that was produced. It is in the hands of the board 
ready to go. It was somehow derailed.
    Ms. Watson. Thank you very much.
    Mr. Khorrami. Congresswoman.
    Ms. Watson. Yes.
    Mr. Khorrami. If I may speak just a moment. Perhaps a 
better question for Dr. Slavkin would be is if he is putting 
out this warning which you held up that he has in his clinics 
is I believe the Prop 65 warning that we were talking about, 
then what would be the opposition to having this same 
information handled to the patient in the form of a leaflet? 
Because that warning, unfortunately because of the shortcomings 
of the law, only has to be passed out by entities that have 
more than 10 employees which leaves out a big portion of the 
dentists in this State.
    So this pamphlet following your law, pursuant to your law, 
would take out a huge gap in the law that we have. And perhaps 
a better that Dr. Slavkin could answer is what would be the 
opposition of doing just that?
    Ms. Watson. Yes, that is why I said do you a go to Eureka. 
I mean, do you cover the State? Obviously not. And I am just 
wondering, that is why I referred to Dr. Yokoyama. Why is it 
that we cannot get compliance from the dental board.
    Mr. Burton. Ms. Watson, do you have any more questions 
right now? I have a couple more if you----
    Ms. Watson. OK. If somebody would like to respond to me, 
someone who has read the brochure, can you tell me what it is 
in that brochure that Dr. Yokoyama wrote that is so offensive 
that we have had people blocking us from getting it completed? 
If anybody would like to respond. If there is some inaccuracy 
in there, if there is something that you question? Is there 
anyone in the audience that has seen it who would like to come 
forward and point it out? If so, would you write me a letter 
specifying.
    The National Dental Association, I gave them the same 
challenge. I said take my law and take the brochure and then 
rewrite it and send it back to me. Well, all I got was the 
letter stating their position in opposition. So I'm missing 
something and I would like you to help educate me as to what it 
is I am missing. Will anyone like to respond?
    OK. Well, thank you so much, Mr. Chairman.
    Mr. Burton. Thank you. I just have a couple of more 
questions.
    And before we finish, I want to thank our staffs, your 
staff and my staff, who worked so hard to put this together 
today. They had to fly all the way out here from Washington, 
and I really appreciate your hard work. You picking me up 
today, thank you very much. All the things you guy have done, 
thank you very much.
    Let me just ask a couple more questions here. You are not a 
doctor of chemistry, are you, Dr. Slavkin?
    Mr. Slavkin. No.
    Mr. Burton. All right. Well, in May 2003 there was a 
hearing held by my subcommittee, a Dr. Maths Berlin who is a 
Ph.D. and professor emeritus in environmental medicine at the 
University of London presented the finding of his report, which 
was entitled ``Mercury in Dental-Filling Materials--An Updated 
Risk Analysis in Environmental Medical Terms.'' Are you 
familiar with his study at all?
    Mr. Slavkin. No.
    Mr. Burton. Well, here is what he said. This was the 
conclusion of his report. ``With reference to the fact that 
mercury is a multi-potent toxin with effects on several levels 
of the biochemical dynamics of the cell, amalgam must be 
considered to be an unsuitable material for dental restoration. 
This is especially true since fully adequate and less toxic 
alternatives are available.''
    That was his statement, and he has done extensive studies 
on this.
    And then the chairman of the Department of Chemistry at the 
University of Kentucky Dr. Boyd E. Haley testified before our 
committee that were absolutely no doubt whatsoever that what we 
saw on the screen today was accurate; that those emissions were 
coming from the mercury in those amalgams and they did cause 
toxicity to the brain.
    These are people whose life's work is in that area. And so 
I hope, and I understand what you said and I admire the work 
you do here, but I hope you will take a hard look since you are 
one of the leaders in this area here in California, take a hard 
look at some of these studies. Because some of these people who 
have really worked at this as far as from a chemical 
standpoint, heads of chemistry departments throughout the 
world, are absolutely convinced that the amalgams are a major 
part of the problem.
    And with that, are there any more questions?
    Ms. Watson. I just wanted to ask Dr. Slavkin, since you are 
here at USC, would you agree to work with myself and my staff 
to give us information? Because I really need to get the input 
from your professionals as to why there is a feeling among the 
organized dental community that we need to continue to use 
mercury in amalgams?
    Mr. Slavkin. Yes. Whatever we can do to, I mean USC and the 
School of Dentistry. We are interested in facilitating anything 
that will improve the quality of oral health in the Nation and 
in California. And if we can be helpful, we would like to----
    Ms. Watson. You know, since I am very, very proud of this 
institution and you happen to be located in my District, I 
would like to say that based on the scientific information I 
received from the University of Southern California and the 
Dental Department that we have been able to come to this 
conclusion. I would be very proud to quote the scientific data. 
And this is for all the panelists. What I am not going to do is 
tolerate more delays in complying with the law. And what I am 
going to do, and everyone hear this, is support the lawsuits 
against the board. And I hope we can look at them individually. 
Because how dare them violate a mandate. In some way they are 
not getting that. And I intend to pursue this to its final 
conclusion.
    I would love to have the support of any of you that are 
willing to work with us, but in particular, Dr. Slavkin, I 
could use your input.
    So let me know.
    And thank you so much for putting this out. I wish you 
would go all the way to Eureka. And with that, I want to say 
thank you for your participation and your input.
    Mr. Burton. OK. Well, thank you very much.
    I think Representative Watson and I put out a press 
release. I do not know if it is printed or will be printed, but 
in that press release one of the things that we did was we 
commented that there was a school where a very minute amount, I 
believe in a chemistry lab, was spilled. The children had to be 
taken out of school. Their clothes had to be confiscated. The 
school had to be evacuated while they cleaned it up because it 
is such a toxic substance. So I think the point you made is 
well taken.
    I would just like to end up by saying thank you all for 
your patience.
    Thank you, Ms. Watson, for being here today.
    And I would like to make one more comment to the board out 
here on behalf of Ms. Watson. I think if they continue to 
ignore the law, they certainly are doing it at their own peril. 
I think that they are opening themselves up to all kinds of 
legal exposures if they do not get on with following the law 
very, very quickly. And if I can help you in anyway, you may 
rest assured I will.
    Thank you very much. We stand adjourned.
    Ms. Watson. Thank you.
    [Whereupon, the subcommittee adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3640.027

[GRAPHIC] [TIFF OMITTED] T3640.028

[GRAPHIC] [TIFF OMITTED] T3640.029

[GRAPHIC] [TIFF OMITTED] T3640.030

[GRAPHIC] [TIFF OMITTED] T3640.031

[GRAPHIC] [TIFF OMITTED] T3640.032

[GRAPHIC] [TIFF OMITTED] T3640.033

[GRAPHIC] [TIFF OMITTED] T3640.034

                                 <all>

</pre></body></html>
